          EVALUATION REPORT


            2012 NRC Safety Culture and Climate Survey


                    OIG-13-A-15       March 28, 2013




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
NRC Office of the Inspector General
Safety Culture and Climate Survey

Executive Summary

March 2013
                             UNITED STATES
                     NUCLEAR REGULATORY COMMISSION
                              WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL
                                           March 28, 2013


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations

                            J.E. Dyer
                            Chief Financial Officer



FROM:                       Stephen D. Dingbaum /RA/



SUBJECT:                    2012 NRC SAFETY CULTURE AND CLIMATE
                            SURVEY (OIG-13-A-15)


Attached is the Office of the Inspector General’s (OIG) report titled 2012 NRC
Safety Culture and Climate Survey. The OIG engaged an independent
contractor, Towers Watson, to conduct the survey of NRC’s workforce to assess
the agency’s safety culture and climate. The 2012 survey results are significantly
more favorable in 12 comparable categories when compared to both the U.S.
National Norm and the U.S. Research and Development Norm. When compared
to the Towers Watson U.S. High Performing Companies Norm, the NRC is
significantly more favorable in 3 of the 13 comparable categories.

The historical comparison of survey results from 2009 to 2012 indicates a less
positive result, with 8 of 19 categories significantly less favorable than the 2009
results. In contrast, compared to the 2005 survey results the NRC has improved
in all 18 categories.

Opportunities for improvement have been identified through the survey.
Specifically, NRC’s senior management should focus on improving the following
areas:

       DPO/Non-Concurrence – Losing significant ground on negative reactions when
       raising views different from senior management, supervisor, and peers.

       Management– NRC is well below external benchmarks on recognizing and
       respecting value of human differences.
                                            -2-

      Development – Significant declines in recruiting/retaining the right people
      and developing people to their full potential.

      Performance Management – Low and losing ground for effectiveness of
      performance reviews.

      Image – NRC has been aligned to the benchmarks in the past but is now below all
      three external benchmarks.

      Senior Management – Less than half of respondents feel action has been taken
      since the last survey—as many are neutral—which provides a good opportunity for
      improvement.

      Quality focus – Reinforcing a key point raised in the focus groups, there is a clear
      opportunity to impact the perception that people sacrifice quality in order to meet
      metrics.

Results-to-Action workshops were held the week of January 8, 2013. The
workshops were designed to help agency managers analyze the survey results
for their individual organizations and develop appropriate action plans aimed at
improving NRC’s safety culture and climate.

If you have any questions, please contact me at 301-415-5915 or RK Wild, Team
Leader, at 301-415-5948.

Attachment: As stated
Table of Contents



Abbreviations and Acronyms................................................................................................................1
Purpose of Survey and Background ....................................................................................................3
Survey Design .........................................................................................................................................4
Survey Results in Brief ..........................................................................................................................5
     Survey Administration Summary ........................................................................................................5
     External Benchmark Summary ...........................................................................................................5
     Historical Comparison Summary ........................................................................................................5
     Internal Comparison Summary ...........................................................................................................6
     Survey Results Summary ...................................................................................................................6
Qualitative Design Phase: Interviews and Focus Groups ..................................................................7
     Conclusion of Qualitative Phase ........................................................................................................8
Survey Development / Pretest ...............................................................................................................9
     Survey Categories ..............................................................................................................................9
Survey Administration ........................................................................................................................ 12
Overall Category Scores ..................................................................................................................... 13
Comparison of NRC with the U.S. National Norm ............................................................................ 14
Comparison of NRC with U.S. Research and Development Norm ................................................. 16
Comparison of NRC with U.S. High Performing Companies Norm ................................................ 17
Comparison of NRC 2012 Results with NRC 2009 Results ............................................................. 18
Comparison of NRC 2012 Results with NRC 2005 Results ............................................................. 19
Internal Comparisons .......................................................................................................................... 20
     Office Comparisons ......................................................................................................................... 21
     Office Historical Comparisons ......................................................................................................... 24
     Grade Level Comparisons ............................................................................................................... 27
     Job Category Comparisons ............................................................................................................. 28
     Job Function Comparisons .............................................................................................................. 29
     Total Length of NRC Service Comparisons .................................................................................... 30
     Resident Inspectors versus Non-Resident Inspectors .................................................................... 31
Key Driver Analysis ............................................................................................................................. 32
Conclusion ........................................................................................................................................... 41




March 2013
This page is intentionally blank
                                                                                                      1




Abbreviations and Acronyms
The following table includes a list of abbreviations and acronyms in this report.


Acronym            Full Name
ACRS               Advisory Committee on Reactor Safeguards
ADM                Office of Administration
ASLBP              Atomic Safety and Licensing Board Panel
CR                 Continuing Resolution
Dev                Development
Diff               Difference
DPO                Differing Professional Opinion
EDO                Executive Director for Operations
GG                 General Grade
HR/SBCR/CSU        OCHCO/Office of Small Business and Civil Rights/ Central Support Unit
HQ                 Headquarters
Fav.               Favorable
FSME               Office of Federal and State Materials and Environmental Management Programs
ISR                International Survey Research
IT                 Information Technology
N                  N-size; number of respondents
                   Not Available or Not Applicable; not able to compare the item or category to the norm or
N/A
                   internal comparison
NMSS               Office of Nuclear Material Safety and Safeguards
NRC                Nuclear Regulatory Commission
NRO                Office of New Reactors
NRR                Office of Nuclear Reactor Regulation
NSIR               Office of Nuclear Security and Incident Response
OCA                Office of Congressional Affairs
OCAA               Office of Commission Appellate Adjudication
OCFO               Office of the Chief Financial Officer
OGC                Office of the General Counsel
OEDO               Office of the Executive Director for Operations
OE                 Office of Enforcement
OI                 Office of Investigations
OIG                Office of the Inspector General
OIP                Office of International Programs
OIS                Office of Information Services
OPA                Office of Public Affairs
PDC                Professional Development Center
Perf.              Performance
RES                Office of Nuclear Regulatory Research
SECY               Office of the Secretary




March 2013
2


Acronym         Full Name
SES/Executive   Senior Executive Service/Executive Level
SVC
Level           Service(s)
Towers Watson   Towers Watson – International Survey Research
U.S.            United States
U.S. R&D        United States Research and Development Norm
YR or YRS       Year or Years
                                                                                                          3




Purpose of Survey and Background
For over 14 years, International Survey Research (ISR) has been working with the NRC to assess their
safety culture and climate as well as other aspects of employee experience such as engagement. ISR
conducted NRC’s survey in 1998, 2002, 2005, and 2009. In 2007, Towers Perrin acquired ISR and
subsequently formed Towers Watson after a later merger. The Nuclear Regulatory Commission (NRC),
Office of the Inspector General (OIG) engaged Towers Watson (formerly ISR) to conduct the 2012 Safety
Culture and Climate Survey of all full-time and permanent part-time agency employees.


The NRC OIG conducted the Safety Culture and Climate Survey for approximately 3,755 employees in the
fall of 2012. Through this research initiative, the NRC OIG’s goals were to:


     Measure NRC's safety culture and climate to identify areas of strength and opportunities for
      improvement.

     Understand the Key Drivers of Engagement (leverage points for improving engagement).

     Compare the results of this survey against the survey results that OIG reported previously.

     Provide, where practical, benchmarks for the findings against other similar organizations and high-
      performing companies.


To achieve these goals, the 2012 Safety Culture and Climate Survey consisted of four distinct activities: a
review of the existing research on safety culture and climate, evaluation of the 1998, 2002, 2005, and
2009 Safety Culture and Climate Survey results, a qualitative design phase where a random sample of
NRC employees and managers were interviewed, and a quantitative component consisting of a survey
administered to all full-time and permanent part-time NRC employees. For the sole purposes of this study,
NRC in conjunction with Towers Watson defined Safety Culture and Climate as follows:


     Safety Culture (as it relates to the agency) refers to the complex sum (or whole) of the mission,
      characteristics, and policies of an organization, and the thoughts and actions of its individual
      members, which establish and support nuclear safety and security as overriding priorities.

     Climate refers to the current work environment of the agency. Climate is like a snapshot in time and
      can affect culture.


Please note that this definition is not the current and official definition of safety culture at the NRC.
However the above definition of Safety Culture and Climate was established in order to have a consistent
comparison to results from prior years.


A better understanding of NRC’s safety culture and climate will facilitate identification of agency strengths
and opportunities for improvement. Agency program and support offices can use this information to




March 2013
4


develop action plans, as warranted. In addition, the OIG plans to use the survey results in connection with
risk assessments in order to facilitate annual audit planning.



Survey Design
As previously discussed, the 2012 Safety Culture and Climate Survey consisted of four distinct areas. The
interviews and Towers Watson’s review of the 1998, 2002, 2005, and 2009 Safety Culture and Climate
Survey results served as the basis for designing the 2012 questionnaire. The questions that comprised the
2012 survey included selected items from Towers Watson’s normative database as well as tailored items
to address the unique topic of NRC’s safety culture and climate. The 2012 study, as a fifth iteration survey,
provides the NRC with a distinct advantage: a comparison of the 2012 results with historical and norm
items used in 1998, 2002, 2005, and 2009 survey administrations.


During the survey design process, some survey questions were added based on their relevance and on
the interviews and focus groups. Likewise, some questions were removed, because some concepts (e.g.,
Risk-Based Methodologies) are now mature and reflected throughout the agency’s regulatory framework.
In addition, an inter-item correlation analysis was completed, and some items were removed due to high
correlation of scores with other survey items. In all, the 2012 survey contained 132 separate items, as
compared with 145 items in 2009.


After a brief review of the survey results as well as interview and focus group analysis, this executive
summary will highlight the quantitative results of NRC’s survey. First, this summary will examine the
overall results, looking at specific areas of strength and opportunities for improvement for the NRC.
Category-level results will be compared with Towers Watson’s U.S. National Norm, U.S. Research and
Development Norm (U.S. R&D), U.S. High Performance Norm, and the 1998, 2002, 2005, and 2009 NRC
Safety Culture and Climate Survey Results. The summary will then report internal comparisons such as
office and regions, job grades, job categories, job functions, and years of service. Finally, a detailed
analysis is provided that highlights the key results of the Safety Culture and Climate Survey.
                                                                                                        5




Survey Results in Brief
Survey Administration Summary

The OIG’s NRC Safety Culture and Climate Survey was administered from September 4 – September 28,
2012. All NRC employees and managers were eligible to participate. Of the 3,755 employees asked to
participate, 2,981 completed surveys, for an overall return rate of 79%. This return is lower than the
previous survey administration in 2009 of 87% participation, yet is more than sufficient to provide a reliable
and valid measure of the current attitudes and perceptions of NRC employees and managers (Exhibit 1).


External Benchmark Summary

When compared to the U.S. National Norm, the overall category profile for the NRC is significantly more
favorable (utilizing statistical significance at the 95% confidence level, an industry standard) in 12
comparable categories (Exhibit 3). Similarly, when comparing the NRC survey scores with the Towers
Watson U.S. R&D, 12 categories score significantly above the norm. The most favorable difference is
Workload and Support, which is 15 points above the norm (see Exhibit 4). As the score demonstrates in
this comparison, NRC employees’ opinions are generally more favorable than what would typically be
observed among U.S. R&D populations.


This year’s study also used the external benchmark comparison: the Towers Watson U.S. High
Performing Companies Norm. The Towers Watson U.S. High Performing Companies Norm is comprised
of a weighted average of employee survey results from a cross-section of U.S. companies. Data are
derived from recent client studies conducted by Towers Watson and companies qualify for the inclusion
by meeting two criteria: (a) superior financial results relative to industry performance; and (b) superior
human resource practices, defined by top-quartile employee opinion scores. When compared to this
rigorous norm, the NRC is significantly more favorable in 3 of the 13 comparable categories. The most
favorable difference against this norm is Training, which is 4 points above the norm (Exhibit 5).


Historical Comparison Summary

The historical comparison of results from 2009 to 2012 looks fairly negative, with 8 of 19 categories
significantly less favorable than the 2009 NRC results. The most positive improvement since 2009 is the
Workload and Support, which is 1 point above the 2009 score (Exhibit 6).


Compared to 2005, the NRC has improved in all 18 categories. The most notable improvement was Open,
Collaborative Working Environment, which was significantly more favorable in 2012 by 11 points
respectively. Office/Region Management also shows a major improvement, of nine points more favorable
in 2012 as compared to 2005 (Exhibit 7).




March 2013
6


The most notable historical improvements can be seen in the current 2012 study versus the study in 2005,
with all 18 categories eligible for comparison showing improvements. Of the 18 categories, 12 scored at
least five points more favorably in comparison with 2005 (Exhibit 7).


Internal Comparison Summary

Examining the NRC data in terms of individual office distinctions allows an interesting picture to emerge.
In the comparison of category scores by office/division/region, Headquarters, OIG, RES, and Region I are
significantly more favorable than the NRC overall in two or more categories, including categories such as
Clarity of Responsibilities, Development, Management, and Workload and Support. While some offices
are less favorable than the NRC overall scores, it is important to recognize that NRC’s overall scores were
higher than the U.S. National, and U.S. R&D Norms in most categories (Exhibits 3 and 4).


Employees were also requested to identify their Job Category in the survey. Respondents could choose
from senior management, middle management, line management, and non-supervisor classifications.
Differences exist between responses from higher levels of management to the survey questions versus
responses from line management and non-supervisory classifications. This pattern is particularly common
among government and private sector organizations alike. Responses from senior management and
middle management deviate by double-digit differences compared with NRC Overall scores (Exhibit 15).


Among Job Function categories, employees in the Administrative/Support, Legal, and Security job
functions tended to have higher unfavorable scores when compared to NRC Overall. Conversely,
employees in the Engineering job function tended to have significantly more favorable scores for many of
the categories (Exhibit 16).


Survey Results Summary

In summary, the 2012 OIG NRC Safety Culture and Climate Survey results are significantly more
favorable in 12 of 16 comparable categories when compared to the U.S. National Norm, in all 12 of 16
comparable categories when compared to the U.S. R&D Norm, and in 3 of the 13 comparable categories
when compared to the U.S. High Performance Norm.


Comparing the 2012 to the 2009 NRC results, 8 of 19 categories have significantly decreased, from -5
points in Development to -3 points in NRC Mission & Strategic Plan.
                                                                                                      7




Qualitative Design Phase: Interviews and
Focus Groups
As the qualitative design component of the Safety Culture and Climate Survey, Towers Watson conducted
on-site and phone interviews and on-site focus groups. As mentioned in the introduction section, one of
the main activities of this project was to conduct qualitative interviews and focus groups. The primary
emphasis for these interviews and focus groups were to inform the design of the survey instrument and
understand what new themes (or categories) may need to be explored as well as what themes (or
categories) may now be less relevant and thus subject to removal from the survey instrument.


The interviewees and focus groups were asked questions on a variety of areas. The methodology used to
create these questions was based on the key driver areas and lower-scoring (and some higher-scoring)
areas from the 2009 survey, as well as other key factors such as NRC's current key initiatives. A total of
26 interviews and 19 focus group meetings were conducted from May 19 to June 22, 2012. When
counting all of the individuals interviewed from the interview and focus group meetings, a total of 116
individuals were interviewed. The total number of individuals interviewed includes 71 at Headquarters, 24
at Region I, and 21 at Region IV. The analysis from the interview and focus group meetings aided in the
development of the survey instrument.


A thematic analysis for the interview and focus group content provided the following outcomes: the NRC’s
primary mission and objectives and internal image were perceived favorably by most interview and focus
group respondents.


     Mission and Objectives: Clearly stated and understood; concerns about the role of politics.

     Internal Image: Very positive; helps attract individuals from other government entities.


However, respondents had mixed perceptions about NRC’s knowledge transfer, career development and
training, work environment, and career advancement.


     Knowledge Transfer: NRC has made great improvements, but still has an opportunity to improve.
      However, this was not a strong area of concern.

     Career Development and Training and Career Advancement: Focus group participants generally
      felt they get the appropriate training for their jobs as a new employee, but may not always get
      training to advance their careers or continue education for their current role.

     NRC Public Image: Focus group participants gave mixed views of the image to the general public.
      Some participants felt the image was strong and others felt it was not. There was a contrast between
      how NRC’s response to the events in Japan was handled and the recent events with the former
      Chairman. A feeling that how the NRC reacted to the events in Japan was seen in a positive light
      and the events with the former Chairman were seen in a negative light.




March 2013
8


    Workload/Quality Focus/Continuous Improvement Commitment: Most participants felt the NRC
     has a strong focus on quality and continuous improvement. However, due to some areas having an
     increased workload resulting from the events in Japan, hiring freezes, etc. participants were
     concerned that quality could decline. Currently, there was belief that workload has declined from an
     editorial perspective.

    Cooperation: Focus group participants generally felt they could work well together with colleagues.
     Some participants felt cooperation fails at the higher levels of management and is not as effective.

    Communications: Focus group participants in Headquarters felt communications are very strong,
     while participants in the regions felt that most communications from Headquarters are seen as less
     valuable. The rumor mill is still a big source of information. It was common to hear that the NRC
     Reporter is viewed as not useful.

    Diversity and Inclusion: Some focus group participants worried there is too much focus on
     achieving diversity numbers over quality and competency. Others felt the NRC still has a long way to
     go and is not a diverse workplace.


Some areas, such as performance review and management, were recognized as areas for improvement
across the NRC.


    Performance Review: Some focus group participants feel the scale and ratings are too subjective.

    Management: The majority of participants feel immediate managers do not possess the people skills
     necessary to lead. In addition, individuals are concerned about the relationship of their top leaders
     with the NRC’s external image due to the recent events with the former Chairman.


Conclusion of Qualitative Phase

In conclusion, NRC’s primary mission and objectives and internal image were perceived favorably by
interview and focus group respondents. There was seen to be more room for improvement in ensuring
there are adequate supervisors and an adequate performance management system. Interview and focus
group respondents had mixed perceptions about NRC’s knowledge transfer, career development and
training, career advancement, workload, cooperation, communications, and diversity and inclusion. As a
result, these conclusions then informed decisions regarding the final survey content for the 2012 survey
and the Towers Watson survey team provided recommended additions and deletions of survey items for
the OIG’s consideration.
                                                                                                         9




Survey Development / Pre-test
After the survey instrument was agreed upon and confirmed by the OIG survey team, a pre-test version of
the survey instrument was developed based on Towers Watson’s research into safety culture; the
qualitative review of the 1998, 2002, 2005, and 2009 survey questionnaires; the qualitative interview and
focus groups; and Towers Watson’s experience in other government and private sector organizations. The
pre-test survey contained both Towers Watson normed and NRC tailored questions, and was tested with a
broad cross-section of NRC employees, using a random sample of individuals from multiple NRC
locations.


Survey questions were grouped into 20 categories, representing the major topic areas of the NRC’s Safety
Culture and Climate. A list of the categories, along with a brief description of the items each category
contains, is provided in the following pages. For each category, the average favorable response
(percentage of employees responding favorably to a given set of questions) was calculated; Exhibit 2 of
this report shows the percent-favorable response for each survey category. Beginning at Exhibit 3, we
present comparisons of the 2012 survey results with 1998, 2002, 2005, and 2009 NRC historical results;
Towers Watson’s U.S. Research and Development Norm; U.S. National Norm; and U.S. High
Performance Norm.


Survey Categories

1.    Clarity of Responsibilities: Assesses clarity of job responsibilities, duplication across work units,
      and task prioritization.

2.    Supervision: Examines employee perceptions of their immediate supervisors’ technical
      competency; level of authority; availability; communication skills; people management and team-
      building skills; attention to staffing needs; competency for understanding future needs; and their level
      of effectiveness when working with people of different gender, racial/ethnic background, or lifestyle.

3.    Working Relationships: Measures the level of cooperation, respect, and teamwork among
      employees, work units, divisions, office/regions, and Headquarters.

4.    Empowerment: Assesses the amount of authority employees have to do their jobs, the trust they
      receive from management, the openness to discuss differing opinions, the ability to openly and
      confidently raise issues, and whether NRC’s climate allows one to be innovative.

5.    Communication: Evaluates the availability of information about matters affecting the agency, and
      information employees need to do their job. It also assesses the degree of openness that employees
      feel they have in speaking up in the NRC. This category measures employees’ understanding of the
      goals and objectives of their work unit, division, office/region, and NRC as a whole and the NRC
      Strategic Plan. This category also measures the effectiveness of various internal communication
      vehicles.




March 2013
10


6.   Workload and Support: Evaluates the level of staff resources to handle the workload, the amount of
     stress employees experience on the job, and prioritization and resource allocation to improve
     efficiency of work, such as the dissemination of information. This category also evaluates employees’
     understanding of the NRC’s safety culture.

7.   Training: Assesses availability and quality of training, and knowledge of safety concepts. Also
     provides employees the opportunity to identify barriers to attending NRC-sponsored and other
     publicly/privately offered training courses.

8.   Development: Assesses availability and quality of training, recruitment and retention of talented
     employees, development of employees to their full potential, and perceptions of career progression
     within the NRC. Also provides employees the opportunity to identify barriers to attending NRC-
     sponsored and other publicly/privately offered training courses.

9.   Performance Management: Explores NRC’s recognition for quality of performance, and investigates
     the breadth, utility, and understanding of performance reviews.

10. Engagement: Probes employees’ willingness to recommend the NRC as a good place to work,
    whether they feel they are a part of the agency, their pride in working for the NRC and their belief in
    NRC goals, objectives, and values. This category also measures employee intent to leave for both
    retirement- and non-retirement-related reasons.

11. NRC Mission and Strategic Plan: Assesses the clarity of NRC’s mission and strategic plan, and
    whether employees believe management decisions are consistent with the mission and strategic
    plan. In addition, this category assesses the use of the strategic plan in assisting employees in
    prioritizing their work and formulating budgets.

12. NRC Image: Examines employee perceptions of whether NRC is highly regarded by its various
    stakeholders; NRC’s effectiveness in communicating to the general public, and whether all
    employees are held to the same standards of ethical behavior. Also, this category assesses the
    factors that attract people to working at the NRC.

13. Continuous Improvement Commitment: Assesses employee views on NRC’s commitment to
    public safety and whether employees are encouraged to communicate ideas to improve
    safety/regulations/operations. This category also measures the NRC’s effort to capture and record
    the collective experience of retiring employees for future use in the agency.

14. Quality Focus: Explores employee views on the quality of NRC’s (divisions’) work as well as the
    sacrifice of quality work due to the need to meet a deadline or the need to satisfy a personal or
    political agenda.

15. Open, Collaborative Work Environment: This category probes the degree to which employees are
    satisfied with the different programs/policies that are available at the NRC (e.g., the Differing
    Professional Opinions Program, the Open Door Policy, and the Non-Concurrence Program). This
    category also addresses employees comfort with communicating with different levels of
    management.
                                                                                             11


16. DPO/Non-concurrence: This category assesses employee awareness and perceived effectiveness
    of the Differing Professional Opinions program and the Non-concurrence process.

17. Elevating Concerns: Examines employees’ views pertaining to the process of bringing awareness
    to areas of concern, including accessibility and organizational responsiveness.

18. Management: Probes employees’ views of overall management within the NRC, including
    management style and respect for diversity.

19. Office/Region Management: Focuses on employees’ views of how their divisions and offices are
    managed, including communication and decision making.

20. Senior Management: Probes employees’ views of senior management within the NRC, including
    management style and confidence in management’s decisions.




March 2013
12




Survey Administration
The OIG’s NRC Safety Culture and Climate Survey was administered from September 4 – September 28,
2012. All NRC employees and managers were eligible to participate. Of the 3,755 employees asked to
participate, 2,981 completed surveys, for an overall return rate of 79%. This return is lower than the last
survey administration (87% participation in 2009), yet is more than sufficient to provide a reliable and valid
measure of the current attitudes and perceptions of NRC employees and managers. Other years before
2009 were lower than 2012.


Exhibit 1


Administration: September 4 – September 28, 2012                                                    Outgoing       Returned


     NRC 2012                                                                    79%                  3,755          2,981




     NRC 2009                                                                            87%          3,935          3,404



     NRC 2005                                                            71%                          3,206          2,269



     NRC 2002                                             53%
                                                                                                      2,868          1,525



     NRC 1998                                                56%
                                                                                                      3,013          1,696



TOWERS WATSON’S GLOBAL RETURN RATE IS 75%


EXHIBIT 1 FOOTNOTE: A valid survey is when the individual selects at least one coding question and at least one opinion question.
Self-select coding can result in sub-group participation amounts not adding up to the overall NRC total.
                                                                                                        13




Overall Category Scores
The average favorable response score for each category (percentage of employees responding favorably
to a given set of questions) was calculated and is provided below. All of the 20 categories demonstrate
majority favorable scores (defined as greater than 50% favorable responses), with the most favorable
being Clarity of Responsibilities at 85% favorable.


The category scores range between 59% favorable to 85% favorable, with Clarity of Responsibility, NRC
Mission & Strategic Plan, NRC Image, and Working Relationships all being characterized by employees
as most favorable, with scores at 80% or better. The remaining categories range from Engagement at
78% to DPO/Non-Concurrence at 59% (the lowest-scoring category). In reviewing “raw” category scores,
caution should be exercised in the absence of historical or external benchmarks. The favorability scores of
many questions administered in the general U.S. population tends to be lower than one might expect.


Exhibit 2

Summary Category Scores
NRC OVERALL (N=2,981)

                                                    Favorable Scores

Clarity of Responsibilities                                                                  85

NRC Mission & Strategic Plan                                                             83

NRC Image                                                                               80

Working Relationships                                                                   80

Engagement                                                                          78

Supervision                                                                         77

Communication                                                                      75

Management                                                                     74

Workload and Support                                                           73

Elevating Concerns                                                            72

Open, Collaborative Working Environment                                       71

Continuous Improvement Commitment                                         70

Empowerment                                                              68

Senior Management                                                        67

Training                                                                 67

Office/Region Management                                             66

Performance Management                                               66

Quality Focus                                                       63

Development                                                     62

DPO/Non-Concurrence                                            59


                                          0    25         50                        75            100




March 2013
14




Comparison of NRC with the U.S. National
Norm
A Towers Watson norm is a weighted sample of employee responses categorized by nation, industry,
function, or performance. The first benchmark NRC is compared with is the U.S. National Norm. This norm
is comprised of organizations representing a broad spectrum of industries across the United States and
has been updated in the last 6 months. The norm includes 160,397 cases (weighted average) from
individual respondents. Employees in the norm are Hourly, Salaried, Exempt, and Non-Exempt up to and
including Executives. Organizations in the norm are weighted to ensure proper proportionality.


Exhibit 3

Summary Category Scores vs. Benchmark
NRC OVERALL (N=2,981)
vs. TW US NATIONAL NORM (N=160,397)
Categories Ranked By Difference                                Favorable Scores                                         Differences From Benchmark

Workload and Support                                                                 73                                                                           11

Training                                                                                  79                                                                  9

Empowerment                                                                           76                                                                      8

Communication                                                                                        90                                                   6

NRC Mission & Strategic Plan                                                                    84                                                        6

Working Relationships                                                                      80                                                             6

Quality Focus                                                                   68                                                                        6

Development                                                               62                                                                          5

Engagement                                                                                79                                                          4

Supervision                                                                               79                                                      3

Performance Management                                                         66                                                                 3

Senior Management                                                              67                                                                 2

Office/Region Management                                                   64                                                                     2

Continuous Improvement Commitment                                                          80                                                 0

NRC Image                                                                                  80                                        -1

Management                                                                           74                                             -3


                                                      0   25         50                   75                 100     -20      -10         0               10           20
4 Categories cannot be com pared to this Benchm ark                                                  Red / Green Difference Bars are statistically significant




The overall category profile for the NRC is above the U.S. National Norm, as illustrated in the graphic. The
NRC score for a category is represented by the center line in the graph. The NRC is significantly more
favorable in 12 comparable categories represented by the green bars, the greatest difference being for
Workload and Support, which is 11 points higher than the U.S. National Norm.
                                                                                                        15


Whenever a percent favorable or unfavorable response between two groups is displayed, a statistical test
is conducted by Towers Watson to determine how confident we can be about whether the difference in
scores represents a “real” difference in opinion or if it is more likely the difference was caused by random
chance. A statistically significant difference is one that is large enough, given the size of the groups being
compared, to be unlikely to be caused by chance. Statistically significant differences are therefore thought
to be indicators of real difference between the two groups being compared. A statistically significant
difference indicates there is less than a 5% chance the difference occurs randomly.


The previous graphic does not show results for DPO/Non-Concurrence, Elevating Concerns,
Organizational Change, or Open, Collaborative Working Environment because they are categories
containing unique tailored questions specific to the NRC and do not have U.S. National Norm equivalent
questions.




March 2013
16




Comparison of NRC with U.S. Research
and Development Norm
The U.S. Research and Development Norm is a representative sample of the U.S. research and
development workforce weighted according to Bureau of Labor Statistics data. This norm contains a
representative sample of organizations throughout the U.S. and includes 24,138 cases (weighted
average) from R&D functions. When comparing the 2012 NRC survey scores with the U.S. Research and
Development Norm, 12 categories score significantly above the norm. The most favorable difference is
Workload and Support which is 15 points above norm. As the scores demonstrate in this comparison,
NRC employee opinions are generally more favorable than what would typically be observed among U.S.
R&D populations.


Exhibit 4

Summary Category Scores vs. Benchmark
NRC OVERALL (N=2,981)
vs. TW US RESEARCH AND DEVELOPMENT NORM (N=24,138)
Categories Ranked By Difference                                Favorable Scores                                         Differences From Benchmark

Workload and Support                                                                 73                                                                            15

Training                                                                                  79                                                                   9

Communication                                                                                        90                                                    7

Development                                                               62                                                                               7

NRC Mission & Strategic Plan                                                                    84                                                     6

Performance Management                                                         66                                                                      6

Senior Management                                                              67                                                                      5

Office/Region Management                                                   64                                                                          5

Empowerment                                                                               78                                                       4

Quality Focus                                                                   68                                                                 4

Working Relationships                                                                          83                                                  3

Engagement                                                                                79                                                       3

Supervision                                                                               79                                                   1

Continuous Improvement Commitment                                                          80                                         -1

Management                                                                           74                                             -3

NRC Image                                                                                  80                                    -5


                                                      0   25         50                   75                 100     -20      -10          0               10       20
4 Categories cannot be com pared to this Benchm ark                                                  Red / Green Difference Bars are statistically significant
                                                                                                                                                                17




Comparison of NRC with U.S. High
Performing Companies Norm
The Towers Watson U.S. High Performing Companies Norm is comprised of some of the top performing
organizations in the U.S., included because they meet two criteria - very strong financial results and very
high employee survey scores. An organization must meet both criteria in order to be included in this norm.


When comparing the NRC results to the U.S. High Performing Companies Norm, NRC had 3 categories
with significantly more favorable scores. Training showed the highest difference of 4 points.


Exhibit 5


Summary Category Scores vs. Benchmark
NRC OVERALL (N=2,981)
vs. TW US HIGH PERFORMING COMPANIES NORM (N=140,000)


Categories Ranked By Difference                                Favorable Scores                                       Differences From Benchmark

Training                                                                                 79                                                            4

Workload and Support                                                                 77                                                                3

Communication                                                                                      90                                              1

Working Relationships                                                                         83                                                   1

NRC Mission & Strategic Plan                                                                  84                                          -1

Engagement                                                                                81                                         -3

Supervision                                                                              80                                          -3

NRC Image                                                                                80                                          -4

Office/Region Management                                                  59                                                     -5

Senior Management                                                                   75                                         -7

Performance Management                                                         68                                              -7

Development                                                               60                                                   -7

Management                                                                          74                                   -12


                                                      0   25         50              75                    100     -20         -10             0           10        20
7 Categories cannot be com pared to this Benchm ark                                                Red / Green Difference Bars are statistically significant




March 2013
18




Comparison of NRC 2012 Results with NRC
2009 Results
The historical comparison of results from 2012 to 2009 looks fairly negative, with 8 of 19 comparable
categories significantly less favorable than the 2009 NRC results. Of the 19 comparable categories, the
most positive improvement since 2009 is the Workload and Support category, which is 1 point above the
2009 score.



Exhibit 6

Summary Category Scores vs. Benchmark
NRC OVERALL (N=2,981)
vs. NRC OVERALL 2009 (N=3,404)
Categories Ranked By Difference                              Favorable Scores                                                 Differences From Benchmark

Workload and Support                                                                    73                                                                1

Clarity of Responsibilities                                                                           85                                              0

Working Relationships                                                                            80                                                   0

Communication                                                                               76                                                        0

Open, Collaborative Working Environment                                                71                                                             0

Empowerment                                                                       68                                                         -1

Training                                                                          67                                                         -1

Quality Focus                                                                63                                                              -1

Supervision                                                                                  77                                             -2

Office/Region Management                                                      66                                                            -2

DPO/Non-Concurrence                                                     59                                                                  -2

NRC Mission & Strategic Plan                                                                      83                                   -3

Continuous Improvement Commitment                                                  70                                                  -3

Senior Management                                                                           75                                      -4

NRC Image                                                                                        80                               -5

Engagement                                                                                   77                                   -5

Management                                                                              74                                        -5

Performance Management                                                        66                                                  -5

Development                                                              62                                                       -5


                                                    0   25         50                        75                    100     -10         -5         0           5   10
1 Category cannot be com pared to this Benchm ark                                                          Red / Green Difference Bars are statistically significant
                                                                                                                                                                  19




Comparison of NRC 2012 Results with NRC
2005 Results
Compared to 2005, the NRC has improved in all 18 comparable categories, from Open, Collaborative
Working Environment, which is significantly more favorable in 2012 vs. 2005 by 11 points, to Clarity of
Responsibilities, which has improved by 2 points. Engagement, Training, and Supervision showed an
improvement of 1 point; however, they were not statistically significant.


Exhibit 7

Summary Category Scores vs. Benchmark
NRC OVERALL (N=2,981)
vs. NRC OVERALL 2005 (N=2,269)
Categories Ranked By Difference                                Favorable Scores                                             Differences From Benchmark

Open, Collaborative Working Environment                                                       78                                                                     11

Office/Region Management                                                        66                                                                               9

Senior Management                                                                         75                                                                 8

Management                                                                               74                                                                  7

Continuous Improvement Commitment                                                        73                                                                  7

Quality Focus                                                              63                                                                                7

DPO/Non-Concurrence                                                       60                                                                                 7

NRC Mission & Strategic Plan                                                                        84                                                   6

Empowerment                                                                         68                                                                   6

Performance Management                                                         64                                                                        6

Development                                                                62                                                                            6

Working Relationships                                                                          80                                                        5

Workload and Support                                                                     73                                                          4

Communication                                                                             76                                                         3

Clarity of Responsibilities                                                                         85                                           2

Supervision                                                                                    79                                                1

Engagement                                                                                    77                                                 1

Training                                                                        66                                                               1


                                                      0   25         50                       75                 100     -20      -10        0               10           20
2 Categories cannot be com pared to this Benchm ark                                                      Red / Green Difference Bars are statistically significant




March 2013
20




Internal Comparisons
The following internal comparisons illustrate how various subgroups within NRC (i.e., regions, offices,
grade levels, job functions, job categories, and tenures) vary at the category-level average compared with
NRC overall. Please note that in these charts, statistically significant differences are indicated by brightly
colored (green or red) cells.


When reviewing any of the internal comparisons, such as the graph on the next page, it should be noted
that while all respondents are included in the overall number (N=2,981), not all employees provided a
response to every coding question in the survey. For this reason, the sum of all groups may not be equal
to the total NRC Overall combined group. Also, to ensure confidentiality for each respondent, groups with
N<20 are included in the overall NRC population counts, but are not broken out separately.
                                                                                                                                                   21



Office Comparisons

Examining the NRC data in terms of office distinctions allows an interesting picture to emerge. In this first
set of comparisons listed in the following graphic, most of the offices did not show any significant
differences from NRC overall.


Headquarters Overall (N=2,175) has no statistical difference to the NRC Overall. This is due to the fact
that Headquarters has a significant number of respondents as part of the overall survey respondent
population.


Exhibit 8

Category Breakdown Matrix
NRC OVERALL (N=2,981)
By Office/division/region - Part 1
  A. NRC OVERALL (N=2,981)                                                         C. HEADQUARTERS OVERALL (N=2,175)
  B. REGION OVERALL (N=769)
                              Values displayed are based on Total Favorable        Colored Cells indicate a statistically significant difference
  #    Category                                                               A      B        C
  1    Clarity of Responsibilities                                            85    89       84
  2    Communication                                                          75    74       75
  3    Continuous Improvement Commitment                                      70    71       69
  4    Development                                                            62    64       61
  5    DPO/Non-Concurrence                                                    59    61       58
  6    Elevating Concerns                                                     72    74       71
  7    Empowerment                                                            68    69       68
  8    Engagement                                                             78    79       77
  9    Management                                                             74    74       73
 10    NRC Image                                                              80    81       79
 11    NRC Mission & Strategic Plan                                           83    86       83
 12    Office/Region Management                                               66    68       65
 13    Open, Collaborative Working Environment                                71    72       71
 14    Performance Management                                                 66    66       66
 15    Quality Focus                                                          63    66       62
 16    Senior Management                                                      67    67       67
 17    Supervision                                                            77    77       77
 18    Training                                                               67    68       67
 19    Working Relationships                                                  80    83       79
 20    Workload and Support                                                   73    77       71




March 2013
22



Office of Administration (ADM), Office of the Chief Financial Officer (OCFO), and Office of Information
Services (OIS), have a number of categories that are significantly less favorable than the NRC Overall,
with OIS statistically lower in 14 of 20 categories. Conversely, Headquarters has seven categories that are
statistically more favorable.


Exhibit 9


Category Breakdown Matrix
NRC OVERALL (N=2,981)
By Office/division/region - Part 2
 A.   NRC OVERALL (N=2,981)                                                        G. NRR (N=442)
 B.   HEADQUARTERS (N=216)                                                         H. NSIR (N=171)
 C.   OCHCO/SBCR/CSU (N=99)                                                        I. OCFO (N=85)
 D.   OGC (N=84)                                                                   J. OIG (N=51)
 E.   ADM (N=131)                                                                  K. OIS (N=101)
 F.   NMSS (N=125)

                              Values displayed are based on Total Favorable        Colored Cells indicate a statistically significant difference
  #     Category                                                              A      B        C       D        E       F       G        H          I   J    K
  1     Clarity of Responsibilities                                           85    90       84      83       84      78      86       83      76      87   73
  2     Communication                                                         75    81       74      72       70      73      75       74      70      79   71
  3     Continuous Improvement Commitment                                     70    76       68      69       62      65      69       70      62      74   62
  4     Development                                                           62    67       61      61       56      57      60       62      50      75   50
  5     DPO/Non-Concurrence                                                   59    60       57      59       46      55      62       57      47      55   49
  6     Elevating Concerns                                                    72    79       72      69       64      67      70       72      58      78   61
  7     Empowerment                                                           68    75       67      65       64      64      70       67      54      73   55
  8     Engagement                                                            78    82       76      75       73      76      77       79      67      81   68
  9     Management                                                            74    82       75      66       71      67      75       73      59      84   59
 10     NRC Image                                                             80    83       80      77       73      79      81       83      67      83   66
 11     NRC Mission & Strategic Plan                                          83    88       79      79       76      82      83       82      75      89   77
 12     Office/Region Management                                              66    76       64      63       61      57      67       63      49      73   45
 13     Open, Collaborative Working Environment                               71    78       70      70       65      68      73       71      56      74   60
 14     Performance Management                                                66    71       63      65       68      62      63       69      55      82   60
 15     Quality Focus                                                         63    69       63      55       51      56      64       61      56      77   41
 16     Senior Management                                                     67    72       66      63       61      54      68       66      59      74   58
 17     Supervision                                                           77    82       76      78       77      78      77       78      66      79   65
 18     Training                                                              67    70       63      67       66      67      67       65      62      77   58
 19     Working Relationships                                                 80    84       80      78       73      77      83       82      70      81   65
 20     Workload and Support                                                  73    82       70      71       59      65      73       69      62      90   51
                                                                                                                                                    23



RES and Region I had two or more categories that were significantly more favorable than NRC Overall.
Region I had six categories that were significantly more favorable: Clarity of Responsibilities,
Development, Elevating Concerns, Management, NRC Mission & Strategic Plan, and Workload and
Support. Region IV had five categories that were statistically less favorable: Communications,
Empowerment, Management, Office/Region Management, and Senior Management. Regions II and III
were not significantly different from NRC Overall.


Exhibit 10


Category Breakdown Matrix
NRC OVERALL (N=2,981)
By Office/division/region - Part 3
  A.   NRC OVERALL (N=2,981)                                                        E.   REGION I (N=178)
  B.   RES (N=190)                                                                  F.   REGION II (N=246)
  C.   FSME (N=142)                                                                 G.   REGION III (N=190)
  D.   NRO (N=330)                                                                  H.   REGION IV (N=155)
                               Values displayed are based on Total Favorable        Colored Cells indicate a statistically significant difference
  #      Category                                                              A         B       C       D      E       F       G        H
  1      Clarity of Responsibilities                                           85    86         84      84     95      86      90       86
  2      Communication                                                         75    77         76      76     79      77      72       66
  3      Continuous Improvement Commitment                                     70    72         71      72     73      70      73       65
  4      Development                                                           62    69         63      58     70      64      67       55
  5      DPO/Non-Concurrence                                                   59    56         57      64     63      63      63       54
  6      Elevating Concerns                                                    72    74         72      72     80      76      74       65
  7      Empowerment                                                           68    72         68      68     75      69      71       59
  8      Engagement                                                            78    83         77      77     83      79      80       75
  9      Management                                                            74    78         77      73     81      77      71       66
 10      NRC Image                                                             80    85         79      80     84      82      83       75
 11      NRC Mission & Strategic Plan                                          83    86         86      83     90      86      86       82
 12      Office/Region Management                                              66    72         68      67     72      71      68       58
 13      Open, Collaborative Working Environment                               71    73         71      74     75      71      73       67
 14      Performance Management                                                66    73         66      65     73      69      63       60
 15      Quality Focus                                                         63    68         63      63     68      68      69       57
 16      Senior Management                                                     67    73         73      68     72      70      66       58
 17      Supervision                                                           77    80         77      74     83      76      76       74
 18      Training                                                              67    73         66      65     73      69      69       62
 19      Working Relationships                                                 80    78         86      77     86      81      85       80
 20      Workload and Support                                                  73    78         74      71     83      74      78       73




March 2013
24



Office Historical Comparisons

Each Office was also compared to its own 2009 score on each category. The numbers in the cells below
and on the next two pages indicate the improvement or decline for that office versus its own 2009 results,
by category. A number of groups have experienced improvements while others have been unable to
maintain the same level of results as the previous survey. Headquarters had 17 categories with an
improvement from 2009. Communication has improved by 7 points while Empowerment improved by 6
points. There are 14 categories across all of the offices that showed a significant decrease in favorability
when being compared to the 2009 results.




Exhibit 11
A. Clarity of Responsibilities                      G. Empowerment                              N. Performance Management
B. Communication                                    H. Engagement                               O. Quality Focus
C. Continuous Improvement Commitment                I.   Management                             P. Senior Management
D. Development                                      J.   NRC Image                              Q. Supervision
E. DPO/Non-concurrence                              K. NRC Mission & Strategic Plan             R. Training
F. Elevating Concerns                               L.   Office/Region Management               S. Working Relationships
                                                    M. Open, Collaborative Working              T. Workload and Support
                                                       Environment


                                 A   B    C    D    E    F   G   H    I    J    K    L    M    N    O    P    Q    R    S    T

HEADQUARTERS (N=216)
                                 1   7    4    3    1 N/A 6      1    5    1    2    4    5    -2   3    3    4    2    5    0
vs. 2009 (N=225)

OCHCO/SBCR/CSU (N=99)
                                 4   0    -3   -8   -3 N/A 1     -6   -5   -5   -7   4    -1   -4   -2   -7   2    -5   -1   5
vs. 2009 (N=105)


OGC (N=84) vs. 2009 (N=88)   -5      -2   -1   -2   1 N/A -6 -11 -10 -8         -6   -9   2    -8 -12 -7      -3   1    -4   -7


ADM (N=131) vs. 2009
                             -1      -1   -6   -5   1 N/A 6      -6   -2   -5   -4   6    3    -6   -1   -4   0    -2   -1   5
(N=133)

NMSS (N=125) vs. 2009
                             -8      -4 -10 -13 -11 N/A -10 -10 -14 -9          -8 -22 -7 -11 -13 -22 -1           -2   -8   -11
(N=189)

NRR (N=442) vs. 2009
                                 1   3    -3   -7   0 N/A 0      -5   -2   -5   -3   4    -1   -8   2    -1   -1   -2   3    4
(N=455)

NSIR (N=171) vs. 2009
                             -3      -2   -3   -9   0 N/A -7     -5 -12 -5      -5   -6   -4   -4   -4   -8   -4   -1   -1   4
(N=193)
                                                                                                                                   25



Exhibit 12
A. Clarity of Responsibilities                        G. Empowerment                                    N. Performance Management
B. Communication                                      H. Engagement                                     O. Quality Focus
C. Continuous Improvement Commitment                  I.        Management                              P. Senior Management
D. Development                                        J.        NRC Image                               Q. Supervision
E. DPO/Non-concurrence                                K. NRC Mission & Strategic Plan                   R. Training
F. Elevating Concerns                                 L.        Office/Region Management                S. Working Relationships
                                                      M. Open, Collaborative Working                    T. Workload and Support
                                                         Environment


                                 A    B    C    D          E     F    G   H     I   J    K    L    M      N    O    P    Q    R     S    T

OCFO (N=85) vs. 2009
                                 -4   -1   -2   -8         -1   n/a -1    -7   -3   -5   -4   -1   -4     -6   -2   -3   -7   -2    3    -6
(N=105)


OIG (N=51) vs. 2009 (N=49)       2    0    5    7          4    n/a   8   2    7    1    2    9    4      5    3    4    8    2     4    11


OIS (N=101) vs. 2009 (N=167)     0    1    -4   -9         0    n/a -1    -5   -8   -6   -2   -2   1      -8   -5   -2   -10 -10    0    -3


RES (N=190) vs. 2009
                                 1    3    0    -1         0    n/a   0   -1   -4   0    1    0    4      -1   3    0    -3   3     0    3
(N=208)

FSME (N=142) vs. 2009
                                 -2   0    -4   -12        -7   n/a -2    -9   -6   -8   -4   1    -1     -5   -3   -3   -2   -2    -1   0
(N=164)

NRO (N=330) vs. 2009
                                 -1   -2   -4   -14        -1   n/a -6    -8   -13 -10 -6     -5   -1     -8   -3   -8   -5   -4    -2   -1
(N=440)




March 2013
26



Regions I, II, and III had similar non-significant differences from 2009 scores across all categories. Region
IV had 11 significantly less favorable scores when compared to the 2009 results, with Office/Region
Management being 22 points lower.


Exhibit 13
A. Clarity of Responsibilities                       G. Empowerment                                   N. Performance Management
B. Communication                                     H. Engagement                                    O. Quality Focus
C. Continuous Improvement Commitment                 I.       Management                              P. Senior Management
D. Development                                       J.       NRC Image                               Q. Supervision
E. DPO/Non-concurrence                               K. NRC Mission & Strategic Plan                  R. Training
F. Elevating Concerns                                L.       Office/Region Management                S. Working Relationships
                                                     M. Open, Collaborative Working                   T. Workload and Support
                                                        Environment

                                 A    B    C    D         E    F    G   H    I    J    K    L    M      N    O   P     Q    R    S    T

REGION I (N=178) vs. 2009
                                 3    2    -4   -2        -3 n/a    3   -5   0    -4   0    -1   1      -3   1   -2    0    1    0    5
(N=204)

REGION II (N=246) vs. 2009
                                 -1   5    -1   4         3   n/a   1   -4   0    -2   -3   3    2      -3   3   -1    1    4    0    0
(N=265)

REGION III (N=190) vs. 2009
                                 2    -2   -6   2         -3 n/a    1   -5   -7   -3   -2   -6   -1     -4   2   -6    -1   1    2    0
(N=198)

REGION IV (N=155) vs. 2009
                                 -4   -7 -12 -11 -12 n/a -13 -10 -18 -8                -8 -22 -10 -14 -10 -14          -7   -4   -4   1
(N=182)
                                                                                                                                                     27



Grade Level Comparisons

Another comparison of interest is grade level. The pattern demonstrated in the chart below is very typical
of government and private sector clients, regardless of industry or sector. The NRC data reveal
statistically significant positive responses from the SES/SLS/Executive, the most senior level of the
agency (the column to the extreme right in the graphic). GG-1’s to GG-10’s, GG-11’s to GG-12’s, GG-15’s
and Senior Level/Administrative Law Judges are either equal to, or had more favorable responses in
several categories, when compared to NRC Overall, while, GG-13’s and GG-14’s had significantly less
favorable scores for several categories.


GG-14 had the highest number of categories that were significantly less favorable when compared to NRC
Overall: Clarity of Responsibilities, Communication, Continuous Improvement Commitment, Development,
Elevating Concerns, Empowerment, Management, NRC Image, NRC Mission and Strategic Plan,
Office/Region Management, Open Collaborative Working Environment, Performance Management, Senior
Management, and Supervision.


Exhibit 14


Category Breakdown Matrix
NRC OVERALL (N=2,981)
By Grade Level
  A.   NRC OVERALL (N=2,981)                                                         E.   GG-14 (N=864)
  B.   GG-1 TO GG-10 (N=245)                                                         F.   GG-15 (N=764)
  C.   GG-11 TO GG-12 (N=185)                                                        G.   SENIOR LEVEL/ADMIN LAW JUDGE (N=25)
  D.   GG-13 (N=686)                                                                 H.   SES/SLS/EXECUTIVE LEVEL (N=185)
                                Values displayed are based on Total Favorable        Colored Cells indicate a statistically significant difference
  #       Category                                                              A         B     C       D        E       F       G        H
  1       Clarity of Responsibilities                                           85    90        83     85       82      87      98       94
  2       Communication                                                         75    82        77     73       71      76      73       84
  3       Continuous Improvement Commitment                                     70    75        74     68       65      71      67       83
  4       Development                                                           62    69        63     59       56      64      60       81
  5       DPO/Non-Concurrence                                                   59    52        53     54       55      64      50       82
  6       Elevating Concerns                                                    72    75        70     70       67      74      68       89
  7       Empowerment                                                           68    68        68     65       63      73      70       88
  8       Engagement                                                            78    81        80     78       75      78      80       85
  9       Management                                                            74    81        75     71       68      77      71       91
 10       NRC Image                                                             80    82        79     80       77      81      86       91
 11       NRC Mission & Strategic Plan                                          83    86        85     82       80      85      78       93
 12       Office/Region Management                                              66    75        67     62       59      68      71       88
 13       Open, Collaborative Working Environment                               71    70        69     68       67      76      69       90
 14       Performance Management                                                66    74        68     61       62      69      51       80
 15       Quality Focus                                                         63    64        59     60       60      64      68       83
 16       Senior Management                                                     67    75        65     63       62      70      58       86
 17       Supervision                                                           77    81        79     74       73      79      85       92
 18       Training                                                              67    69        71     67       64      68      70       75
 19       Working Relationships                                                 80    82        80     79       77      82      69       91
 20       Workload and Support                                                  73    77        74     72       69      72      87       86




March 2013
28



Job Category Comparisons

Employees were requested to identify their Job Category in the coding section of the survey, choosing
from senior management, middle management, line management, and non-supervisor classifications. The
pattern displayed below is particularly common among government and private sector organizations alike.
However, it remains interesting to see the sharp differences between higher levels of management and
other employees at the line management and non-supervisory levels. Senior management and middle
management deviate by double-digit differences compared with NRC Overall scores.


Exhibit 15


Category Breakdown Matrix
NRC OVERALL (N=2,981)
By Job Category
 A. NRC OVERALL (N=2,981)                                                      D. LINE MANAGEMENT (N=452)
 B. SENIOR MANAGEMENT (N=68)                                                   E. NON-SUPERVISOR (N=2,330)
 C. MIDDLE MANAGEMENT (N=118)
                          Values displayed are based on Total Favorable        Colored Cells indicate a statistically significant difference
  #   Category                                                            A      B        C       D        E
  1   Clarity of Responsibilities                                         85    96       90      88       84
  2   Communication                                                       75    88       81      74       74
  3   Continuous Improvement Commitment                                   70    88       81      72       68
  4   Development                                                         62    88       80      66       59
  5   DPO/Non-Concurrence                                                 59    86       81      66       55
  6   Elevating Concerns                                                  72    94       87      76       70
  7   Empowerment                                                         68    94       82      72       66
  8   Engagement                                                          78    87       83      77       77
  9   Management                                                          74    96       85      77       72
 10   NRC Image                                                           80    95       85      81       79
 11   NRC Mission & Strategic Plan                                        83    96       89      86       82
 12   Office/Region Management                                            66    93       81      67       64
 13   Open, Collaborative Working Environment                             71    94       87      75       69
 14   Performance Management                                              66    82       77      68       65
 15   Quality Focus                                                       63    85       76      64       61
 16   Senior Management                                                   67    91       84      70       65
 17   Supervision                                                         77    96       88      79       75
 18   Training                                                            67    77       73      66       67
 19   Working Relationships                                               80    95       90      83       79
 20   Workload and Support                                                73    91       79      71       72
                                                                                                                                                29



Job Function Comparisons

As noted in the chart illustrating Job Function Comparisons, there is very little difference between Legal
and Scientific job functions when compared to NRC Overall. However, Security employees are
significantly less favorable in four of the 17 categories – the highest difference being -10 for Office/Region
Management and Workload and Support.


The Engineering job function had significantly more favorable scores for eight of the 20 categories. All the
category score increases were in the single digits, with DPO/Non-Concurrence showing the highest
increase of 4 points.


Exhibit 16

Category Breakdown Matrix
NRC OVERALL (N=2,981)
By Job Function
 A. NRC OVERALL (N=2,981)                                                       D. LEGAL (N=108)
 B. ADMINISTRATIVE/SUPPORT (N=854)                                              E. SECURITY (N=197)
 C. ENGINEERING (N=1,428)                                                       F. SCIENTIFIC (N=361)
                           Values displayed are based on Total Favorable        Colored Cells indicate a statistically significant difference
  #   Category                                                             A      B        C       D        E       F
  1   Clarity of Responsibilities                                          85    85       88      86       76      84
  2   Communication                                                        75    76       75      71       71      74
  3   Continuous Improvement Commitment                                    70    70       70      68       67      71
  4   Development                                                          62    63       63      60       55      61
  5   DPO/Non-Concurrence                                                  59    52       63      60       52      60
  6   Elevating Concerns                                                   72    70       74      71       67      72
  7   Empowerment                                                          68    65       71      69       63      68
  8   Engagement                                                           78    76       80      77       74      78
  9   Management                                                           74    73       75      70       67      75
 10   NRC Image                                                            80    76       83      79       74      82
 11   NRC Mission & Strategic Plan                                         83    82       85      80       80      84
 12   Office/Region Management                                             66    65       68      65       56      67
 13   Open, Collaborative Working Environment                              71    68       74      72       66      72
 14   Performance Management                                               66    68       66      62       66      64
 15   Quality Focus                                                        63    59       66      62       56      63
 16   Senior Management                                                    67    68       67      63       62      67
 17   Supervision                                                          77    76       79      80       72      74
 18   Training                                                             67    67       69      68       62      66
 19   Working Relationships                                                80    78       83      77       75      78
 20   Workload and Support                                                 73    70       76      79       63      72




March 2013
30



Total Length of NRC Service Comparisons

When employee opinion data are segmented according to length of service groups, there is little
difference in scores. This is unusual when compared and contrasted with private sector organizations,
where employees with between 5 to 10 years of service often respond unfavorably to the topics addressed
in the survey compared to the rest of their organization. The absence of significant variation in category
results at the NRC indicates that tenure is not a major factor in how employees respond to the questions
in the survey.


Those employees with less than 1 year of service had five categories score significantly higher than NRC
overall. These all had double-digit positive differences with Development and Office/Region Management
being the highest at 22 points.


Another interesting finding is the lack of statistically significant favorable differences for employees with 20
years of service or more. Generally in Towers Watson’s experience, this group tends to be more favorable
than other groups of employees due to their length of service with the organization. In the case of the
NRC, this population is generally equal to the overall results.


Exhibit 17


Category Breakdown Matrix
NRC OVERALL (N=2,981)
By Total Length of NRC/AEC Service
 A.   NRC OVERALL (N=2,981)                                                         E.   10 YEARS BUT < 15 YEARS OF SVC (N=379)
 B.   LESS THAN 1 YEAR OF SVC (N=48)                                                F.   15 YEARS BUT < 20 YEARS OF SVC (N=153)
 C.   1 YEAR BUT < 5 YEARS OF SVC (N=737)                                           G.   20 YEARS BUT < 25 YEARS OF SVC (N=320)
 D.   5 YEARS BUT < 10 YEARS OF SVC (N=914)                                         H.   25 YEARS OR MORE OF SVC (N=414)
                               Values displayed are based on Total Favorable        Colored Cells indicate a statistically significant difference
  #      Category                                                              A         B      C      D        E       F       G        H
  1      Clarity of Responsibilities                                           85    86        85     82       86      86      89       89
  2      Communication                                                         75    84        75     73       74      75      76       76
  3      Continuous Improvement Commitment                                     70    75        70     69       69      70      71       72
  4      Development                                                           62    84        62     58       61      60      66       66
  5      DPO/Non-Concurrence                                                   59    56        56     57       59      62      63       62
  6      Elevating Concerns                                                    72    83        73     70       71      70      71       74
  7      Empowerment                                                           68    80        69     66       68      68      69       71
  8      Engagement                                                            78    83        80     77       79      76      77       75
  9      Management                                                            74    93        76     71       74      69      73       77
 10      NRC Image                                                             80    92        82     79       79      81      79       79
 11      NRC Mission & Strategic Plan                                          83    93        85     81       84      83      85       85
 12      Office/Region Management                                              66    88        67     62       63      67      68       70
 13      Open, Collaborative Working Environment                               71    81        71     69       73      71      71       73
 14      Performance Management                                                66    57        67     64       67      69      66       70
 15      Quality Focus                                                         63    67        65     60       63      62      66       63
 16      Senior Management                                                     67    71        66     64       67      68      70       72
 17      Supervision                                                           77    89        77     75       76      74      78       80
 18      Training                                                              67    74        68     64       67      66      68       71
 19      Working Relationships                                                 80    88        79     78       82      81      81       84
 20      Workload and Support                                                  73    83        73     70       72      70      76       76
                                                                                                                                                   31



Resident Inspectors versus Non-Resident Inspectors

When a comparison is done between Resident Inspectors versus Non-Resident Inspectors, the only
significant difference is negative in Office/Region Management for Resident Inspectors.


Exhibit 18


Category Breakdown Matrix
NRC OVERALL (N=2,981)
By Resident Inspector
  A. NRC OVERALL (N=2,981)                                                         C. RESIDENT INSPECTOR - NO (N=2,850)
  B. RESIDENT INSPECTOR - YES (N=123)
                              Values displayed are based on Total Favorable        Colored Cells indicate a statistically significant difference
  #    Category                                                               A      B        C
  1    Clarity of Responsibilities                                            85    91       85
  2    Communication                                                          75    69       75
  3    Continuous Improvement Commitment                                      70    64       70
  4    Development                                                            62    55       62
  5    DPO/Non-Concurrence                                                    59    60       59
  6    Elevating Concerns                                                     72    71       72
  7    Empowerment                                                            68    65       68
  8    Engagement                                                             78    80       78
  9    Management                                                             74    67       74
 10    NRC Image                                                              80    81       80
 11    NRC Mission & Strategic Plan                                           83    83       84
 12    Office/Region Management                                               66    57       66
 13    Open, Collaborative Working Environment                                71    69       71
 14    Performance Management                                                 66    59       66
 15    Quality Focus                                                          63    65       63
 16    Senior Management                                                      67    61       67
 17    Supervision                                                            77    80       77
 18    Training                                                               67    66       67
 19    Working Relationships                                                  80    84       80
 20    Workload and Support                                                   73    75       73


EXHIBIT 18 FOOTNOTE: Senior Resident Inspectors are included in the Resident Inspector group.




March 2013
32




Key Driver Analysis
A key driver analysis (multiple regression) enables the identification of those critical areas that drive
employee engagement. Using multiple regression, a statistical technique which is used to understand and
predict the changes in one variable by understanding the relationship between variables, the analysis
looked at factors that had a predictive relationship with engagement. Meaning, if scores in these factors
that influence engagement change, that, in turn, would influence engagement scores to also change. In
order to determine the critical factors that influence employee engagement, the Engagement category is
designed to empirically measure employee engagement. It was utilized as the dependent variable in the
key driver analysis, while all other questions contained in the survey serve as the independent variables
(potential influencers on engagement) and are regressed on the Engagement Index.


“Total Favorable” in the results charts that follow is the combination of the “Agree”/“Tend to Agree”
responses. The Question Mark response column is comprised of employees who do not know or do not
have an opinion to the question. “Total Unfavorable” are employees that responded with a “Tend to
Disagree” or “Disagree” response to the question.


The Engagement category is comprised of responses to the 10 questions that follow in Exhibits 19-23:


Exhibit 19
Items By Category
NRC OVERALL (N=2,981)
vs. 4 Benchmarks
Category 8: Engagement
                                                                                                                         Total
                                                                                                                        Unfavor-
                                                         Total Favorable                       Diff            ?          able

 28. My work gives me a sense of personal   A                                     86                           4          10
     accomplishment.
                                            B                                      87          -1              5            8*
                                            C                                 82                4*             7*         10
                                            D                                 81                5*             8*         10
                                            E                                  83               3*             7*         10
                                                0
                                                0

 29. I would recommend the NRC as a good    A                                     85                           8            7
     place to work.
                                            B                                       89         -4 *            6*           5*
                                            C                                79                 6*           11 *         10 *
                                            D                                80                 5*           11 *           9*
                                            E                                      87          -2 *            7            6*
                                                0
                                                0

                                            0       25          50           75          100
                                                                                                      * indicates a statistically significant difference
Legend
     A. NRC OVERALL (N=2,981)                                        D. TW US RESEARCH AND DEVELOPMENT NORM (N=24,138)
     B. NRC OVERALL 2009 (N=3,404)                                   E. TW US HIGH PERFORMING COMPANIES NORM (N=140,000)
     C. TW US NATIONAL NORM (N=160,397)
                                                                                                                                                             33



Exhibit 20

Items By Category
NRC OVERALL (N=2,981)
vs. 4 Benchmarks
Category 8: Engagement
                                                                                                                                   Total
                                                                                                                                  Unfavor-
                                                             Total Favorable                             Diff            ?          able

  44. I am proud to be associated with the NRC. A                                         90                             7            4
                                               B                                          92             -3 *            5*           3*
                                               C                                         87               3*             8*           5*
                                               D                                         87               2*             8*           4
                                               E                                              93         -3 *            5*           3*
                                                    0
                                                    0

  50. I have the work tools and resources I    A                                   79                                    9          13
      need to achieve exceptional performance.
                                               B 0

                                               C                               75                         3*             8*         17 *
                                               D                              72                          6*             9          19 *
                                               E                                    81                   -2 *            7*         13
                                                    0
                                                    0

                                                0       25          50             75              100
                                                                                                                * indicates a statistically significant difference
Legend
   A. NRC OVERALL (N=2,981)                                              D. TW US RESEARCH AND DEVELOPMENT NORM (N=24,138)
   B. NRC OVERALL 2009 (N=3,404)                                         E. TW US HIGH PERFORMING COMPANIES NORM (N=140,000)
   C. TW US NATIONAL NORM (N=160,397)




March 2013
34



Exhibit 21

Items By Category
NRC OVERALL (N=2,981)
vs. 4 Benchmarks
Category 8: Engagement
                                                                                                                                                Total
                                                                                                                                               Unfavor-
                                                                            Total Favorable                           Diff            ?          able

 53. The amount of stress I experience in my                   A                         61                                         11           28
     job seriously reduces my effectiveness.
                                                               B                           66                         -5 *            9*         25 *
     (N)
                                                               C               47                                     14 *          14 *         38 *
                                                               D                    53                                 8*           19 *         28
                                                               E 0

                                                                   0
                                                                   0

 55. I believe strongly in the goals and                       A                                           92                         6            2
     objectives of this organization.
                                                               B                                           92          0              6            2
                                                               C                                   84                  8*           10 *           6*
                                                               D                                      85               7*           10 *           5*
                                                               E                                           91          1*             6            3*
                                                                   0
                                                                   0

                                                               0       25           50           75             100
       (N) indicates 'Disagreeing' is the Favorable Response                                                                 * indicates a statistically significant difference
Legend
     A. NRC OVERALL (N=2,981)                                                            D. TW US RESEARCH AND DEVELOPMENT NORM (N=24,138)
     B. NRC OVERALL 2009 (N=3,404)                                                       E. TW US HIGH PERFORMING COMPANIES NORM (N=140,000)
     C. TW US NATIONAL NORM (N=160,397)
                                                                                                                                                         35



Exhibit 22


Items By Category
NRC OVERALL (N=2,981)
vs. 4 Benchmarks
Category 8: Engagement
                                                                                                                               Total
                                                                                                                              Unfavor-
                                                                Total Favorable                      Diff            ?          able

  66. I am able to sustain the level of energy I   A                                   80                            7          13
      need throughout the work day.
                                                   B 0

                                                   C                                   81             -1             8          12 *
                                                   D                                     83           -3 *           6*         11 *
                                                   E 0

                                                       0
                                                       0

  70. The NRC energizes me to go the extra         A                         64                                    15           21
      mile.
                                                   B                              72                  -8 *         13 *         15 *
                                                   C                          67                      -4 *         14 *         19 *
                                                   D                           68                     -4 *         15           18 *
                                                   E                                76               -13 *         11 *         13 *
                                                       0
                                                       0

                                                   0       25          50              75      100
                                                                                                            * indicates a statistically significant difference
Legend
   A. NRC OVERALL (N=2,981)                                                 D. TW US RESEARCH AND DEVELOPMENT NORM (N=24,138)
   B. NRC OVERALL 2009 (N=3,404)                                            E. TW US HIGH PERFORMING COMPANIES NORM (N=140,000)
   C. TW US NATIONAL NORM (N=160,397)




March 2013
36



Exhibit 23


Items By Category
NRC OVERALL (N=2,981)
vs. 4 Benchmarks
Category 8: Engagement
                                                                                                                     Don't
                                                            No                             Diff          Yes         Know

 83. At the present time, are you seriously   A                      71                                  16           13
     considering leaving the NRC?
                                              B                           76                -5 *         15             9*
                                              C                     69                       2*          13 *         18 *
                                              D                      70                      1           12 *         18 *
                                              E                           76                -5 *         10 *         14 *
                                                   0
                                                   0

 84. Are you seriously considering leaving the A                     71                                  21             8
     NRC because of your retirement?
                                              B                                 87         -16 *           9*           3*
                                              C 0

                                              D 0

                                              E 0

                                                   0
                                                   0

                                               0       25   50             75        100
                                                                                                  * indicates a statistically significant difference
Legend
     A. NRC OVERALL (N=2,981)                                    D. TW US RESEARCH AND DEVELOPMENT NORM (N=24,138)
     B. NRC OVERALL 2009 (N=3,404)                               E. TW US HIGH PERFORMING COMPANIES NORM (N=140,000)
     C. TW US NATIONAL NORM (N=160,397)




The results of the Key Driver Analysis are shown on the following pages.
                                                                                                       37



Exhibit 24




The Total Variance Explained for this model is 74%, which is considered highly predictive of the
dependent variable Engagement. This indicates that 74% of all of the variation in responses to
Engagement can be accounted for by the responses to these three categories. The .45, .27, and .24 for
the key driver categories are regression coefficients, which indicate the relative strength of each category
in driving engagement. The categories have been listed in the chart above in order of how strongly they
predict engagement of NRC employees.


In interpreting this model, we can assume that individuals responding favorably to Engagement Index
items also responded favorably to the items determined to most influence Engagement. Conversely,
individuals responding unfavorably to Engagement Index items also tended to respond unfavorably to the
items determined to most influence employee engagement. It is apparent that employee engagement at
the NRC is highly affected by attitudes toward Empowerment, NRC Mission & Strategic Plan, and
Training.


We continued the analysis to identify the actual questions driving engagement. Six items emerged from
the analysis:


     I have sufficient authority to do my job well.




March 2013
38


    This Agency has established a climate where the truth can be taken up the chain of command
     without fear of reprisal.

    I am sufficiently informed about NRC's: Performance of its mission.

    Regarding the NRC's mission, I believe: Management decisions are consistent with the mission.

    I believe I have the opportunity for personal development and growth in this organization.

    I have sufficient knowledge of safety concepts to apply them in my job.


Key driver analysis serves as an important tool in prioritizing issues for post-survey follow-up activities.


The exhibits below show the results of the key driver analysis for Employee Engagement, comparing NRC
scores to the NRC 2009 results, U.S. Research & Development and the U.S. High Performing Companies
Norms.


Exhibit 25
             39



Exhibit 26




Exhibit 27




March 2013
40


As can be seen above in Exhibits 25, 26 and 27, question 30b is significantly below the three benchmarks.
Additionally, the first question from Training, question 42, is significantly above the R&D norm, yet below
the 2009 score and the High Performing Companies benchmark. The questions with an “n/a” score were
developed specifically for the NRC, and therefore do not have norm comparisons.


In the NRC Mission & Strategic Plan category both questions were significantly below the U.S. High
Performing Companies Norm. However, the second question ("Regarding the NRC's mission, I believe:
Management decisions are consistent with the mission") had significantly more favorable scores for the
U.S. R&D comparison: 11 points above.


The importance of employee engagement cannot be underestimated. Engaged employees have higher
allegiance to an organization, are willing to expend extra effort, recommend the agency to others as a
great place to work and are committed to staying with the organization.
                                                                                                        41




Conclusion
While the 2012 NRC data continues to be more favorable than industry and national norms, the overall
results are less favorable relative to the 2009 survey.


OVERALL STRENGTHS TO MAINTAIN

Despite concerns raised by some in the focus groups, the survey highlights strength in having appropriate
staff. Consistent with the focus groups, improvements have been made in specific communication
vehicles.


     Workload and Support – Sufficient staff to handle the workload and information needed to do my
      job.

     Training – Many feel training prepared them for their work and they have sufficient knowledge of
      safety concepts.

      –      While still strong relative to benchmarks, NRC is losing ground on the broader career
             development issues (see Development on next page).

     Communication – Most understand how goals/objectives of their work fit into NRC’s future, and
      understand objectives of NRC overall. The survey highlights improvements in ADAMS and EDO
      updates.

      –      Despite the strength in communication overall, the survey reinforces a key point raised in the
             focus groups: the need to improve communication of why decisions were made.


OVERALL OPPORTUNITIES FOR IMPROVEMENT

The biggest opportunities reinforce many of the concerns raised in focus groups, especially relative to
image, development and non-concurrence.


     DPO/Non-Concurrence – Losing significant ground on negative reactions when raising views
      different from senior management, supervisor and peers.

     Management – While the absolute percent favorable scores are not low, NRC is well below the
      external benchmarks on recognizing and respecting value of human differences.

     Development – Significant declines in recruiting/retaining the right people and developing people to
      their full potential (see training question on opportunity for development and growth).

     Performance Management – Low and losing ground for effectiveness of performance reviews.




March 2013
42


    Image – One of the largest drops in percent favorable relates to holding everyone to the same
     ethical standard. NRC has been aligned to the benchmarks in the past but is now below all three
     external benchmarks.

    Senior Management – Less than half of respondents feel action has been taken in response to the
     last survey – as many are neutral, which provides a good opportunity for improvement.

    Quality focus – Reinforcing a key point raised in the focus groups, there is a clear opportunity to
     impact the perception that people sacrifice quality in order to meet metrics.

BENCHMARK COMPARISONS

    2009 NRC survey: Results have statistically decreased in 8 categories and remained the same in 11
     categories.

     –    The greatest declines are in Development, Performance Management, Management, NRC
          Image and Engagement (all -5* points below 2009). (Asterisks denote a statistical significant
          difference).

    U.S. National Norm: The NRC is statistically more favorable in 12 categories, equal to norm in 3 and
     lower than norm in the Management Category.

    U.S. Research & Development Norm: Similar to the U.S. National Norm, many categories (12) are
     more favorable than the norm. Workload and Support is 15* points above the norm with Training at
     9* points and Communication at 7* points.

    U.S. High Performing Companies Norm: This high standard highlights some of the opportunities for
     the NRC. Nine categories are statistically below norm, with Management at -12* points.


GROUP DIFFERENCES

While the results overall are relatively consistent, there are clear differences across key groups:


    Headquarters had very favorable scores compared to the NRC Overall. However, OCFO, OIS, ADM,
     and Region IV scores tended to be less favorable than the overall results.

    Engineers had the highest scores by job function. Security was least favorable, with 4 categories
     statistically below NRC Overall.

    As expected, Senior Management and Middle Management had the most favorable results.

    GG-1 to GG-10, GG-15 and SES/SLS/Executive Level had many categories results more favorable
     than the NRC Overall. GG 14 was the least favorable.

    Employees with less than 1 year of service had the most favorable results on a years-of-service
     basis.
